Our File Number: 42361.00001
Writer’s Direct Dial Number: (561) 650-0716
Writer’s E-Mail Address: JAiello@gunster.com

August 9, 2021
VIA FEDERAL EXPRESS
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Tracy v. Florida Atlantic University Board of Trustees, et al
Case No. 21-120

Dear Sir:
I am counsel for the Respondents in the above-captioned matter. Petitioner Tracy, after a
60-day Covid-based administrative extension, filed a petition for writ of certiorari on July 26,
2021, and the Respondents’ brief in opposition to certiorari is currently due on August 27, 2021.
Pursuant to Rule 30.4, Respondents respectfully request an extension of time to and including
October 26, 2021, within which to file their brief in opposition. Additional time is needed to
prepare the brief in opposition because of the press of other business, including preparation for
and attendance at a 3-week trial spanning the last half of August and early September. The
undersigned has contacted counsel for Petitioner, who stated that Petitioner has no objection to
the extension requested in this letter.
Sincerely,
/s/ Jack J. Aiello
Jack J. Aiello
JJA: mv
Cc: Enrique D. Arana, Esq.

Phillips Point, Suite 500 East, 777 South Flagler Drive • West Palm Beach, FL 33401-6194 | 561-655-1980 | Fax: 561-655-5677 | www.gunster.com
BOCA RATON • FORT LAUDERDALE • JACKSONVILLE • KEY LARGO • MIAMI • ORLANDO • PALM BEACH • STUART • TALLAHASSEE •

ACTIVE:13778849.1

TAMPA • VERO BEACH • WEST PALM BEACH • WINTER PARK

